No. 19-672

 

 

In THE
Supreme Court of the United States

THE RAMS FOOTBALL CoMPANY, LLC and
E. STANLEY KROENKE,

Petitioners,
v.

St. Louis REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,

Respondents.

On Petition for Writ of Certiorari to the
Missouri Court of Appeals, Eastern District

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,902 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 8, 2020.

Colin Casey Hogan /

Wilson-Epes Printing Co., Inc.
